TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Improvements Are Needed to the Information
                   Security Program Governance Process



                                          March 11, 2008

                              Reference Number: 2008-20-076




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 11, 2008


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Improvements Are Needed to the Information
                             Security Program Governance Process (Audit # 200620026)

 This report presents the results of our review to determine whether the Internal Revenue
 Service (IRS) monitored compliance with security policies and procedures and developed
 sufficient information security guidance. This review was included in the Treasury Inspector
 General for Tax Administration Fiscal Year 2008 Annual Audit Plan and was part of the
 Information Systems Programs unit’s statutory requirements to annually review the adequacy
 and security of IRS technology.

 Impact on the Taxpayer
 The IRS is responsible for developing an effective information security governance process
 that complies with Federal Government standards. The IRS could make improvements in
 carrying out two key aspects of this process: (1) monitoring compliance with security policies
 and procedures and (2) issuing security guidance for all employees to follow. Until
 improvements are made, security weaknesses are more likely to occur, and the IRS cannot
 provide assurance that systems containing sensitive taxpayer data are adequately protected from
 security breaches.
                  Improvements Are Needed to the Information Security Program
                                     Governance Process




Synopsis
The National Institute for Standards and Technology (NIST)1 identifies techniques that agencies
can use to monitor the status of their security programs. The IRS needs to improve its use of
these techniques. For example:
    •   System owners are required to ensure that corrective actions are taken to resolve security
        weaknesses. These actions are closed with no assurance provided to IRS executives that
        the actions were effective.
    •   All devices connected to the IRS network are to be scanned quarterly for configuration
        compliance. Not all devices are included in the scans, and weaknesses were not
        documented.
    •   The IRS is required to semiannually analyze incidents reported, identify common
        weaknesses, and follow up to ensure that the weaknesses are corrected. The IRS did not
        always identify the causes of the 1,172 incidents reported in a 1-year period and did not
        always follow up to ensure that the weaknesses were corrected.
    •   Security controls should be tested at least annually to ensure that they are accomplishing
        their intended purposes. During another audit, we found 15 (75 percent) of 20 systems
        did not meet basic annual testing requirements.2
    •   Analysis of metrics should be a part of the IRS’ monitoring efforts. The IRS is making
        progress in this area, but its metrics do not yet meet Federal Government requirements.
While the Cybersecurity organization is primarily responsible for monitoring compliance with
security guidance, the Modernization and Information Technology Services organization and
each of the business functions are responsible for implementing the guidance. In a bureau as
large and diverse as the IRS, it is difficult for one office to enforce implementation across
organizational lines. Thus, the IRS has taken insufficient actions to monitor and enforce
compliance, resulting in weaknesses that put the security and privacy of taxpayer information at
risk.
The NIST also provides key elements that agencies should include in their security guidance.
The Cybersecurity organization developed guidance that meets standards for 9 of the 12 key
elements (security areas). However, guidance for the remaining three elements (system
development life cycle, capital planning, and security services and products acquisition) did not


1
  The NIST, under the Department of Commerce, is responsible for developing standards and guidelines for
providing adequate information security for all Federal Government agency operations and assets.
2
  Treasury Inspector General for Tax Administration - Federal Information Security Management Act Report for
Fiscal Year 2007 (Reference Number 2007-20-186, dated September 4, 2007).
                                                                                                               2
                Improvements Are Needed to the Information Security Program
                                   Governance Process



include all necessary considerations to meet NIST requirements and made references to obsolete
standards and controls.
For any guidance to be effective, it must be communicated to those who need it. The
Cybersecurity organization needs to make it easier for users to locate security policy guidance on
its web site, which is the primary source for communicating security requirements. Confusion
caused by difficulty in locating guidance increases the likelihood that employees could
unknowingly create weaknesses that result in security breaches.

Recommendations
We recommended the Chief Information Officer, through the Security Services and Privacy
Executive Steering Committee, require system owners to regularly report to the Committee on
progress in addressing Plans of Action and Milestones items; require the Cybersecurity
organization to improve the verification of compliance with standard configurations; analyze the
incidents reported to the Computer Security Incident Response Center to identify common or
systemic underlying weaknesses that contributed to these incidents and track corrective actions
in the appropriate Plan of Action and Milestones; ensure that system owners prepare continuous
monitoring plans that implement annual testing of system controls compliant with NIST
guidance; and develop quantifiable security metrics based on IRS information security goals and
objectives and require that the Cybersecurity organization analyze anomalies for root causes and
report its results regularly to the Committee.
To improve security guidance, we recommended the Associate Chief Information Officer,
Cybersecurity, coordinate with other IRS executives, as appropriate, to include complete
NIST-compliant security guidance for the three areas that need to be updated; improve the
Cybersecurity organization Intranet web site by maintaining all security procedures in one
location and providing direct links to other Federal Government guidance as necessary; and
develop a system to notify employees and contractors of changes to security guidance.

Response
IRS management agreed with our recommendations. The Associate Chief Information Officer,
Cybersecurity, will use a process for monitoring progress on Plans of Action and Milestones,
conduct scans every 6 weeks to identify noncompliance with security configuration standards,
prepare quarterly trend reports of security incidents that identify common or systemic
weaknesses, develop a process for validating system owners’ compliance with the IRS’
continuous monitoring procedures, and develop and analyze quantifiable security metrics. The
Security Services and Privacy Executive Steering Committee will take an active role in
overseeing these activities and use the results to improve security in the IRS. In addition, the
Associate Chief Information Officer, Cybersecurity, will develop guidance for the three areas

                                                                                                   3
                Improvements Are Needed to the Information Security Program
                                   Governance Process



that need to be updated, improve the Cybersecurity organization Intranet web site to facilitate
easy access to security guidance, and develop a system to notify employees and contractors of
changes in guidance. Management’s complete response to the draft report is included as
Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                  4
                      Improvements Are Needed to the Information Security Program
                                         Governance Process




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Improvements Are Needed to Monitor Compliance With Security
          Policies and Procedures ................................................................................Page 3
                    Recommendation 1:........................................................Page 8

                    Recommendations 2 through 4:.........................................Page 9

                    Recommendation 5: .................................................................. Page 10

          Information Security Guidance Is Adequate, but Procedures Remain
          Fragmented and Difficult to Locate..............................................................Page 10
                    Recommendations 6 through 8:.........................................Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 14
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Management’s Response to the Draft Report ......................Page 17
        Improvements Are Needed to the Information Security Program
                           Governance Process




                       Abbreviations

FISMA            Federal Information Security Management Act
IRS              Internal Revenue Service
NIST             National Institute for Standards and Technology
POA&M            Plan of Action and Milestones
                   Improvements Are Needed to the Information Security Program
                                      Governance Process




                                             Background

The Internal Revenue Service (IRS) relies extensively on computer systems to support its
financial and mission-related operations. In Fiscal Year 2006, the IRS collected $2.5 trillion in
tax payments, processed millions of tax and information returns, and paid about $277 billion in
refunds to taxpayers. It also collects and maintains a significant amount of personal and
financial information on each American taxpayer. The confidentiality of this sensitive
information must be protected so that taxpayers are not exposed to loss of privacy and/or to
financial loss and damages resulting from identity theft and other financial crimes.
Congress and the Office of Management and Budget instituted a number of laws, regulations,
and directives that govern the establishment and implementation of Federal Government
information security practices. These laws, regulations, and directives establish Federal
Government and agency-level responsibilities for information security, define key information
security roles and responsibilities, identify minimum information security controls, specify
compliance-reporting rules and procedures, and provide other essential requirements and
guidance. They also provide an infrastructure for developing and promulgating detailed
standards and implementation guidance to Federal Government agencies through the National
Institute for Standards and Technology (NIST).1
The NIST developed the Information Security Handbook (Special Publication 800-100) based on
laws and regulations relevant to information security, including the Clinger-Cohen Act of 1996,2
the Federal Information Security Management Act (FISMA),3 and Office of Management and
Budget Circular A-130, Management of Federal Information Resources.4 The purpose of the
NIST Handbook is to assist managers in establishing and implementing an information security
governance program, in compliance with regulations, that supports the agency mission in a


1
  The NIST, under the Department of Commerce, is responsible for developing standards and guidelines for
providing adequate information security for all Federal Government agency operations and assets.
2
  (Federal Acquisition Reform Act of 1996) (Information Technology Management Reform Act of 1996),
Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.). The Act requires agencies to use a disciplined capital planning and investment
control process to acquire, use, maintain, and dispose of information technology resources and to establish a position
of Chief Information Officer.
3
  Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002). The FISMA is the primary legislation governing Federal
Government information security programs, building upon earlier legislation through added emphasis on the
management dimension of information security.
4
  Circular A-130 establishes a minimum set of controls to be included in Federal Government automated
information security programs, assigns Federal Government agency responsibilities for the security of automated
information, and links agency automated information security programs and agency management control systems.
                                                                                                             Page 1
                Improvements Are Needed to the Information Security Program
                                   Governance Process



cost-effective manner. The NIST guidance summarizes security responsibilities for key
executives, including the Agency Head, Chief Information Officer, and Senior Agency
Information Security Officer.
From October 2003 until July 2007, the IRS Senior Agency Information Security Officer and the
Chief Information Officer led two separate organizations. The IRS Mission Assurance and
Security Services organization was formed in October 2003 to bring together previously separate
security functions and enable a consistent, unified approach to information security. The Chief,
Mission Assurance and Security Services, carried out the responsibilities of the Senior Agency
Information Security Officer. Within the Mission Assurance and Security Services organization,
the Information Technology Security Program Office was responsible for interpreting Office of
Management and Budget, NIST, FISMA, and Department of the Treasury requirements and for
establishing security guidance, tracking compliance, monitoring program implementation, and
providing day-to-day support.
On July 8, 2007, the IRS dissolved the Mission Assurance and Security Services organization
and transferred responsibility for computer security to the Modernization and Information
Technology Services organization. The Associate Chief Information Officer, Cybersecurity,
now performs the role of Senior Agency Information Security Officer and reports to the Chief
Information Officer. The Associate Chief Information Officer, Cybersecurity, also leads the
Security Services and Privacy Executive Steering Committee, which is comprised of IRS
executives from all business and functional units and the Modernization and Information
Technology Services organization. This Committee serves as the primary governance body for
all matters relating to security and privacy issues in the IRS. Hereafter, we will refer to the
Cybersecurity organization in this report because the Mission Assurance and Security Services
organization was dissolved during our review.
This review was performed at the office of the Associate Chief Information Officer,
Cybersecurity, in New Carrollton, Maryland, during the period September 2006 through
December 2007. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                          Page 2
                Improvements Are Needed to the Information Security Program
                                   Governance Process




                                 Results of Review

Improvements Are Needed to Monitor Compliance With Security
Policies and Procedures
An information security governance program requires constant review to be effective.
According to the NIST, agencies should periodically test and evaluate the effectiveness of
information security controls, procedures, and practices. The information technology security
staff should monitor the status of security programs to ensure that (1) ongoing security activities
are providing appropriate support to the agency mission, (2) procedures and controls are current
and aligned with evolving technologies, (3) and controls are accomplishing their intended
purpose.
To facilitate ongoing monitoring, the NIST provides examples of methods that agencies such as
the IRS can use to monitor the status of their security programs. These include:
   •   Plan of Action and Milestones (POA&M).
   •   Configuration management.
   •   Incident and event statistics.
   •   Continuous assessment.
   •   Measurement and metrics.
The office of the Associate Chief Information Officer, Cybersecurity, includes aspects of all
these methods as part of its monitoring plan. However, more work needs to be done in each of
these areas to ensure that the IRS information security governance program is being effectively
implemented. We identified the following concerns with the IRS’ current methods for
monitoring compliance with security guidance.

Verification is not obtained to ensure that weaknesses identified in POA&Ms are
resolved
The Office of Management and Budget requires weaknesses identified during security
assessments to be documented in POA&Ms, which are to be reviewed quarterly. Progress to
correct deficiencies and eliminate known vulnerabilities should be tracked until resolution. The
POA&Ms can assist in identifying performance gaps, evaluating an agency’s security
performance and efficiency, and conducting oversight.
Quarterly, the IRS reports to the Department of the Treasury on its total number of POA&M
weaknesses and the number of weaknesses for which corrective actions have been taken, are
ongoing, or have been delayed, as reported by system owners. However, when system owners

                                                                                             Page 3
                   Improvements Are Needed to the Information Security Program
                                      Governance Process



report that they have corrected weaknesses, the Cybersecurity organization does not receive
supporting documentation to verify whether the corrective actions have in fact been taken and
whether the actions resolved the weaknesses.
In March 2007, the Department of the Treasury issued guidance requiring that recently closed
actions on weaknesses be incorporated into the annual testing plans for the related systems. This
action should help verify that POA&M items are properly closed.
Without verification that weaknesses have been corrected, the Cybersecurity organization cannot
monitor progress toward improving the security of IRS systems and the information they process
and store. Government Accountability Office and Treasury Inspector General for Tax
Administration reports continue to describe persistent security weaknesses that place the IRS
at risk of disruption, fraud, and/or inappropriate disclosure of sensitive information. In
March 2007, the Government Accountability Office reported that the IRS had made only limited
progress toward correcting or mitigating previously reported information security weaknesses.5
Followup audits have found that, in some cases, corrective actions were taken but did not
effectively resolve the weaknesses. In at least one instance in Fiscal Year 2007, we found a
previously reported condition had been closed off the IRS program-level POA&M, although
corrective actions had not been taken.6

Verification of configuration compliance needs to be improved
The IRS has standard configurations for most operating systems and devices connected to its
network. It relies on system administrators located throughout the country to maintain those
configurations. Configuration monitoring is an essential component for identifying potential
security-related problems in information systems. To identify noncompliance with configuration
standards, in October 2005 the Cybersecurity organization implemented a requirement for all
computing devices connected to the IRS network to be scanned quarterly for configuration
compliance.
The IRS primarily uses two types of scans: vulnerability scans and compliance checkers.
Vulnerability scans are run from a remote scanning system and check systems for a series of
vulnerabilities based on the SANS Top 20 Vulnerability List.7 The compliance checker tool can
be run locally or remotely on target systems and checks the systems for operating system
configurations. Both types of scans are run quarterly.



5
  Information Security: Further Efforts Needed to Address Significant Weaknesses at the Internal Revenue Service
(GAO-07-364, dated March 2007).
6
  Insufficient Attention Has Been Given to Ensure States Protect Taxpayer Information (Reference
Number 2007-20-134, dated August 31, 2007).
7
  The SANS (SysAdmin, Audit, Network, Security) Institute, established in 1989, develops and maintains the largest
collection of research documents about various aspects of information security.
                                                                                                          Page 4
                  Improvements Are Needed to the Information Security Program
                                     Governance Process



The decision to perform scans quarterly was a step in the right direction, although some large
organizations run these scans daily. The Modernization and Information Technology Services
organization has field office staffs that execute the compliance checker tools on the various IRS
operating systems. The results of the compliance checker tools are documented in action plans.
However, weaknesses identified during quarterly vulnerability scans were not documented in
system POA&Ms to ensure proper tracking and resolution. Security configuration weaknesses
that are not properly tracked may leave the IRS at increased risk of security breaches.
Also, not all types of operating systems and network devices are included in the quarterly scans.
For example, the IRS only recently acquired a tool to scan databases for compliance with
standard configurations. In addition, running the scans quarterly is not frequent enough to ensure
that weaknesses are discovered quickly. Furthermore, scans are regularly scheduled and
predictable, thereby detracting from the reliability of the results for making an accurate
assessment of the compliance with standard configurations.
In our Fiscal Year 2007 FISMA report, we reported that the IRS has security configuration
guidance but needs to do more to ensure information systems apply common security
configurations.8 In another recent review, we evaluated database configuration controls and
found security configurations were not adequately implemented.9 Database security
configurations were poorly communicated, security roles and responsibilities were not assigned
or carried out, and tests to detect noncompliance with standard configurations were inadequate.

Incident and event statistics were not used to identify potential security
weaknesses
Incident statistics are valuable in determining the effectiveness of security guidance. They can
identify performance trends and enable security program managers to identify the need to change
controls and procedures. Incident statistics should be monitored for trends and correlated with
other data sources, including network monitoring, POA&Ms, configuration management,
training and awareness, and other available resources.
The Department of the Treasury requires its bureaus to semiannually analyze the incidents
reported to their Computer Security Incident Response Centers, identify common underlying
weaknesses that contributed to these incidents, and incorporate them into POA&Ms. Since 2006,
these analyses have been due to the Department of the Treasury on May 1 and November 1 of
each year.
The IRS had not completed this analysis prior to our visit in March 2007. Following our visit,
the Computer Security Incident Response Center prepared for submission to the Department of

8
  Treasury Inspector General for Tax Administration - Federal Information Security Management Act Report for
Fiscal Year 2007 (Reference Number 2007-20-186, dated September 4, 2007).
9
  Standard Database Security Configurations Are Adequate, Although Much Work Is Needed to Ensure Proper
Implementation (Reference Number 2007-20-129, dated August 22, 2007).
                                                                                                        Page 5
                Improvements Are Needed to the Information Security Program
                                   Governance Process



the Treasury a response that indicated it had reviewed 1,172 recorded Incident Reports for the
period May 1, 2005, to April 12, 2006. Of those incidents, 584 (50 percent) could be attributed
to noncompliance with 3 security controls:
   •   Incidents related to malicious code protection - 333 (29 percent).
   •   Incidents related to user-installed software - 133 (11 percent).
   •   Incidents related to spam and spyware protection - 118 (10 percent).
For each affected computer, the Computer Security Incident Response Center prepared requests
to have the malicious code, unauthorized software, or spyware removed or to have the system
restored. However, it determined that none of the findings warranted inclusion in a POA&M.
For the second quarter of Fiscal Year 2007, the Computer Security Incident Response Center
reported that malicious code accounted for 46 percent of all incidents, with several systems being
affected daily. Although malicious code and other violations were detected, the IRS did not
always use this information to determine the underlying weaknesses that contributed to their
existence or prepare corrective action plans for improving controls. Without proper analysis of
incident statistics, the IRS cannot adequately monitor trends that may identify common
underlying weaknesses or security controls that need improvement, thus increasing the risk of
security breaches.

Federal Government requirements for continuous monitoring of system security
controls have yet to be implemented
The Guide for the Security Certification and Accreditation of Federal Information Systems
(NIST Special Publication 800-37) requires Federal Government agencies to certify and accredit
information systems every 3 years or when significant changes are made to a system. To certify
a system, agencies must test the security controls to ensure that they are working effectively. A
critical part of this process is the continuous monitoring of the security controls in the
intervening years.
The Recommended Security Controls for Federal Information Systems (NIST Special
Publication 800-53) requires a risk-based selection of controls to be tested annually to inform
system owners about the status of security controls and identify controls that may not be
operating as intended. Those security controls that are volatile or critical to protecting the
system are to be assessed at least annually. All other controls are to be assessed at least once
during the system’s 3-year accreditation cycle. The Guide for Assessing the Security Controls in
Federal Information Systems (NIST Special Publication 800-53a) should be used in assessing the
effectiveness of the controls.
The Cybersecurity organization placed a workbook developed by the Department of the Treasury
on its FISMA webpage to assist system owners in selecting and documenting their annual testing
of NIST controls. The workbook provides descriptions of controls and selection criteria.
However, in our Fiscal Year 2007 FISMA report, we reported that the IRS had not made

                                                                                           Page 6
                Improvements Are Needed to the Information Security Program
                                   Governance Process



sufficient progress in properly implementing annual testing of security controls as part of its
continuous monitoring efforts. Of the 20 information systems reviewed, only 5 (25 percent) met
basic annual testing requirements. Each of the five systems was certified in Fiscal Year 2007
and underwent a thorough system test and evaluation as part of the certification process. System
owners for the remaining 15 systems did not select controls to be tested using a risk-based
approach, and the scopes of the tests were not sufficient to determine whether controls were
working effectively.
We attribute the noncontinuous monitoring in the IRS to a lack of oversight to ensure that the
system owners are held accountable for implementing the process. In addition, the
Cybersecurity organization has not provided adequate direction to system owners on how to
implement the process. Without proper implementation and testing of system controls, system
owners cannot monitor the current status of their information systems or identify weaknesses that
need to be resolved.

Measures and metrics are not used to monitor the effectiveness of the security
program or investments
Metrics are tools designed to improve performance and accountability through the collection,
analysis, and reporting of relevant performance-related data. For information security, the
metrics should provide a means to analyze the adequacy of security activities and identify
possible improvement actions.
The Security Metrics Guide for Information Technology Systems (NIST Special
Publication 800-55) provides guidance on how, by using metrics, an organization could identify
the adequacy of existing security controls, controls, and procedures. It provides an approach to
help management decide where to invest in security protection resources and how to identify and
evaluate nonproductive controls.
Federal laws also require agencies to establish performance measures for information technology
investments and to annually report performance information in business cases to the Office of
Management and Budget to justify continued funding. The Office of Management and Budget
reviews performance data to verify that only sound and cost-effective investments remain in the
IRS information technology portfolio.
The IRS primarily uses the annual FISMA program as a tool for evaluating the effectiveness of
its information security program. The FISMA requires Federal Government agencies to:
   •   Plan for security.
   •   Ensure that appropriate officials are assigned security responsibilities.
   •   Periodically review the security controls in their information systems.
   •   Certify and accredit a system prior to its starting operations and periodically after the
       system is deployed.


                                                                                              Page 7
                Improvements Are Needed to the Information Security Program
                                   Governance Process



Although the FISMA provides various security metrics, it does not fulfill all performance
measurement requirements established by NIST Special Publication 800-55. In addition, the IRS
business case for justifying its $77 million budget request for Fiscal Year 2008 did not provide
planned or actual performance metrics for determining program effectiveness.
The Cybersecurity organization indicated it was waiting for the Department of the Treasury to
provide guidance on developing additional performance measures. We acknowledge that metrics
are generally helpful only to identify problems. For example, metrics may be developed to
identify the number of security incidents, the number of weaknesses on POA&Ms that were not
corrected on time, or the number of security settings that do not comply with configuration
standards. Additional analysis will have to be done to identify the root causes of anomalies so
the appropriate corrective actions can be identified.
While the Cybersecurity organization is primarily responsible for monitoring compliance with
information security procedures and NIST guidance, the Modernization and Information
Technology Services organization and each of the business functions are responsible for
implementing the security guidance. In a bureau as large and diverse as the IRS, it is difficult for
one office, such as the Cybersecurity organization, to enforce the implementation of its guidance
across organizational lines. Thus, the IRS has taken insufficient actions to monitor and enforce
compliance, resulting in weaknesses that put the security and privacy of taxpayer information at
risk.
To assist and support the Cybersecurity organization, the Security Services and Privacy
Executive Steering Committee should take a more active role in monitoring and enforcing
compliance with information security guidance. This Committee consists of executives from the
business and functional organizations who can provide different perspectives and furnish the
authority needed to enforce security guidance. The Committee has already demonstrated success
in implementing encryption on nearly all IRS laptop computers. We consider this action to be a
significant accomplishment, particularly because it required the cooperation of all IRS business
units. By assigning to this Committee accountability for regularly following up on the methods
suggested by the NIST in monitoring security, the IRS could gain a clearer picture of its security
posture at any given time and ultimately be in a better position to make informed decisions on
implementing and enforcing the proper security standards and controls.

Recommendations
The Chief Information Officer, through the Security Services and Privacy Executive Steering
Committee, should:
Recommendation 1: Require system owners to regularly report to the Committee on progress
in addressing POA&M items. On a sample basis, the Committee should require system owners
to provide documentation to demonstrate that corrective actions were adequate to resolve
weaknesses.

                                                                                             Page 8
               Improvements Are Needed to the Information Security Program
                                  Governance Process



       Management’s Response: IRS management agreed with the recommendation. The
       Cybersecurity organization has developed a FISMA Dashboard to provide the current
       status of each FISMA activity, including progress on POA&Ms, at every Security
       Services and Privacy Executive Steering Committee meeting. The Cybersecurity
       organization will give additional focus to POA&Ms by adding an agenda item to the
       meeting for business units to report the progress on their open POA&M items.
Recommendation 2: Require the Cybersecurity organization to improve the verification of
compliance with standard configurations by:
   •   Executing compliance checker tools and vulnerability scans more frequently than
       quarterly. Results should be provided to the Chief Information Officer and the Security
       Services and Privacy Executive Steering Committee.
   •   Extending scanning to evaluate database security.
   •   Including the results of scans in POA&Ms until issues are resolved.
       Management’s Response: IRS management agreed with the recommendation. The
       Cybersecurity organization will conduct scans once every 6 weeks to identify
       noncompliance with IRS standards for security configuration compliance and
       vulnerability management. In addition, it will extend scanning to evaluate database
       security, report scan results to both the Chief Information Officer and the Security
       Services and Privacy Executive Steering Committee, and track results in POA&Ms until
       issues are resolved.
Recommendation 3: Analyze the incidents reported to the Computer Security Incident
Response Center to identify common or systemic underlying weaknesses that contributed to
these incidents and track corrective actions in the appropriate POA&M.
       Management’s Response: IRS management agreed with the recommendation. The
       Computer Security Incident Response Center, based on reported incidents, will prepare
       quarterly trend reports that identify common or systemic underlying weaknesses that
       contribute to these incidents, incorporate and track these weaknesses in the appropriate
       POA&Ms until resolved, and provide this information to the Security Services and
       Privacy Executive Steering Committee.
Recommendation 4: Ensure that system owners prepare continuous monitoring plans that
implement annual testing of system controls compliant with NIST Special Publications 800-53
and 800-53A. The testing should include closed POA&M items and other volatile controls. On
a sample basis, the Committee should ensure that adequate documentation is maintained to
support the test results and closure of POA&M items.
       Management’s Response: IRS management agreed with the recommendation. The
       IRS enterprise continuous monitoring approach requires that system owners prepare
       Continuous Monitoring Plans in compliance with NIST Special Publications 800-53 and

                                                                                         Page 9
                Improvements Are Needed to the Information Security Program
                                   Governance Process



       800-53A. This approach requires that testing include closed POA&M items and other
       volatile controls. The business owner will include the closed POA&M items in its annual
       testing. The business owner is responsible for planning and performing testing,
       documenting the results, and collecting and posting the evidence to the Department of the
       Treasury for tracking and reporting purposes.
       The Cybersecurity organization will develop a process to validate that the system owners
       are following the enterprise continuous monitoring approach. This approach includes
       sampling and validating closed POA&M items by evaluating the test results and
       presenting the results to the Security Services and Privacy Executive Steering Committee.
Recommendation 5: Develop quantifiable security metrics based on IRS information
security goals and objectives. The Cybersecurity organization should analyze anomalies for root
causes and report its results regularly to the Committee.
       Management’s Response: IRS management agreed with the recommendation. The
       Cybersecurity organization will develop a process and collect quantifiable security
       metrics based on IRS security goals and objectives. It will analyze these metrics for the
       root causes of anomalies and report the results of the analyses to the Security Services
       and Privacy Executive Steering Committee.

Information Security Guidance Is Adequate, but Procedures Remain
Fragmented and Difficult to Locate
Developing and documenting adequate security guidance is crucial for effective governance
because it is the primary means by which management communicates its views and
requirements. NIST Special Publication 800-100 covers 12 key aspects of information security
that information security managers are expected to implement and oversee in their respective
organizations. These 12 security areas were identified by the NIST as key elements in an
information security governance program:
   1. System development life cycle.
   2. Awareness and training.
   3. Capital planning.
   4. Interconnecting systems.
   5. Performance measures.
   6. Security planning.
   7. Information technology contingency planning.
   8. Risk management.
   9. Certification, accreditation, and security assessments.
   10. Security services and products acquisition.
   11. Incident response.
   12. Configuration management.

                                                                                         Page 10
                  Improvements Are Needed to the Information Security Program
                                     Governance Process



We compared the NIST security standards for each of the 12 security areas to the information
security guidance developed by the Cybersecurity organization. In general, the Cybersecurity
organization has made significant progress in developing effective information security guidance
that meets NIST standards for 9 of the 12 security areas.
The Cybersecurity organization is responsible for developing the security guidance for the
12 security areas. In some instances, it must work with other organizations to provide security
guidance. For example, coordination is needed with other Modernization and Information
Technology Services organizations to develop guidance for system development life cycle and
capital planning. Coordination with the Agency-Wide Shared Services organization is required
to develop guidance for acquisitions.
However, certain sections of the security procedures and controls set by these organizations were
not current or complete. In particular, the Modernization and Information Technology Services
and Agency-Wide Shared Services organizations’ guidance did not include all necessary security
considerations to meet NIST standards and, sometimes, made references to obsolete security
standards and controls. Additionally, this guidance was not maintained with the information
security guidance developed by the Cybersecurity organization. Instead, it was maintained
separately within other Internal Revenue Manual sections.10
To be effective, guidance must be communicated to those who need it. We found it difficult to
locate security policies and procedures. During two other reviews, we found instances in which
employees were unaware of updated security guidance, how to locate it, and/or where to locate
it. In a recent audit of IRS database security configurations, we identified cases in which IRS
employees with key security responsibilities for database security configurations did not know of
current IRS standards for these configurations.11 We reviewed the controls and found the lack of
awareness contributed to databases failing 30 percent of the over 800 security controls tested.
In another review of access controls over system administrator user accounts, we determined
system administrators interviewed in April 2007 were unaware of the information security
guidance to change passwords more frequently.12 The Cybersecurity organization had
established this guidance in December 2005. IRS employees possessing critical computer
system responsibilities expressed dissatisfaction with or lack of knowledge about where to locate
current security guidance.
The Cybersecurity organization’s web site does not include a direct link to security guidance.
Users must access different links to locate the webpage that contains security guidance. In

10
   The Internal Revenue Manual serves as the IRS’ official source to communicate security guidance to employees
and contractors.
11
   Standard Database Security Configurations Are Adequate, Although Much Work Is Needed to Ensure Proper
Implementation (Reference Number 2007-20-129, dated August 22, 2007).
12
   Effectiveness of Access Controls Over System Administrator User Accounts Can Be Improved (Reference
Number 2007-20-161, dated September 19, 2007).
                                                                                                        Page 11
                Improvements Are Needed to the Information Security Program
                                   Governance Process



addition, the Cybersecurity organization maintains security updates or interim guidance on a
different webpage, thus increasing the risk that recently developed security controls will be
overlooked.
The confusion caused by maintaining guidance in multiple locations and the difficulty in finding
the guidance on the web site increase the likelihood that employees and contractors could
unknowingly create security weaknesses that result in security breaches. We believe the current
process used to provide security guidance needs to be streamlined.

Recommendations
The Associate Chief Information Officer, Cybersecurity, should:
Recommendation 6: Coordinate with other executives in the Modernization and Information
Technology Services organization to include complete NIST-compliant security guidance
regarding the system development life cycle and capital planning. Coordination is also required
with the Chief, Agency-Wide Shared Services, to develop complete security guidance regarding
the acquisition of services.
       Management’s Response: IRS management agreed with the recommendation. The
       Cybersecurity organization will work with other organizations in the Modernization and
       Information Technology Services organization and the business units to include
       NIST-compliant security guidance in both the system development life cycle and capital
       planning processes. It will work with the Agency-Wide Shared Services organization to
       develop appropriate security contractual guidance and processes for acquisition of
       information technology and services.
Recommendation 7: Improve the Cybersecurity organization Intranet web site to facilitate
easy access to current information security guidance. The web site should provide direct links to
NIST guidance.
       Management’s Response: IRS management agreed with the recommendation. The
       Cybersecurity organization is redesigning its web site to give internal and external
       customers a tool that will be focused on sharing security information and services. It will
       add a direct link to NIST guidance as a new feature of the web site redesign.
Recommendation 8: Develop a system to notify employees and contractors of changes in
security guidance.
       Management’s Response: IRS management agreed with the recommendation. The
       Cybersecurity organization will distribute and report changes in security guidance
       through the distribution list of the Security Services and Privacy Executive Steering
       Committee where all IRS offices are represented. The details in the guidance will specify
       applicability to contractors. The Cybersecurity organization will also work with the

                                                                                          Page 12
        Improvements Are Needed to the Information Security Program
                           Governance Process



Agency-Wide Shared Services organization Procurement Office and with all IRS offices
to ensure distribution of the security guidance to IRS contractors through the Contracting
Officer’s Technical Representatives.




                                                                                  Page 13
                  Improvements Are Needed to the Information Security Program
                                     Governance Process



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS monitored compliance
with security policies and procedures and developed sufficient information security guidance.
To accomplish this objective, we:
I.      Determined whether the Cybersecurity organization had implemented adequate processes
        to ensure agency-wide compliance with security guidance.
        A. Determined whether the Cybersecurity organization had defined security roles and
           responsibilities for key leadership positions specified in the NIST1 Information
           Security Handbook (Special Publication 800-100) to promote, issue, and enforce
           information security guidance within the IRS. We compared NIST standards to the
           roles and responsibilities set forth in the Internal Revenue Manual.2
        B. Determined what actions had been taken by the Cybersecurity organization to ensure
           compliance with security controls and procedures.
        C. Reviewed actions taken to ensure that security guidance issued by the Cybersecurity
           organization had been followed and determined whether those actions were effective.
II.     Determined whether the Cybersecurity organization had developed sufficient and timely
        guidance to ensure an effective information security governance program. We reviewed
        NIST Special Publication 800-100, Treasury Information Technology Security Program
        Directive 85-01, the Internal Revenue Manual, and other Federal Government guidance
        and obtained information on security program standards.
        A. Determined whether the Cybersecurity organization had developed adequate
           procedures for security areas specified in NIST Special Publication 800-100 and
           compared NIST standards to Cybersecurity organization information security
           guidance in the Internal Revenue Manual.
        B. Determined who was responsible for issuing security controls and procedures in the
           Cybersecurity organization and how long it took for security guidance to be issued.




1
  The NIST, under the Department of Commerce, is responsible for developing standards and guidelines for
providing adequate information security for all Federal Government agency operations and assets.
2
  The Internal Revenue Manual serves as the IRS’ official source to communicate security guidance to employees
and contractors.
                                                                                                        Page 14
               Improvements Are Needed to the Information Security Program
                                  Governance Process



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Michelle Griffin, Audit Manager
Cari Fogle, Senior Auditor
Jody Kitazono, Senior Auditor
Abraham Millado, Senior Auditor
Stasha Smith, Senior Auditor




                                                                                     Page 15
               Improvements Are Needed to the Information Security Program
                                  Governance Process



                                                                 Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Director, Program Oversight OS:CIO:SM:PO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Controls OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Chief Information Officer OS:CIO




                                                                       Page 16
    Improvements Are Needed to the Information Security Program
                       Governance Process



                                                   Appendix IV

Management’s Response to the Draft Report




                                                          Page 17
Improvements Are Needed to the Information Security Program
                   Governance Process




                                                      Page 18
Improvements Are Needed to the Information Security Program
                   Governance Process




                                                      Page 19
Improvements Are Needed to the Information Security Program
                   Governance Process




                                                      Page 20
Improvements Are Needed to the Information Security Program
                   Governance Process




                                                      Page 21
Improvements Are Needed to the Information Security Program
                   Governance Process




                                                      Page 22
